                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                     MEMORANDUM OF INVESTIGATION

 Case Number: Al4030014                                                                      Page 1 of 1


                 NSF OIG received an allegation of plagiarism in an NSF proposal 1. Our analysis did not
         identify any text copied without proper attribution.

                 Therefore, there is no evidence to substantiate an allegation of plagiarism. Accordingly,
         this case is closed with no (urther action taken.




NSF OIG Form 4 (11/02)
